            PUBLIC
           RELEASE


       NATIONAL OCEANIC AND
 ATMOSPHERIC ADMINISTRATION

 Excess Satellite Funding Indicates Need
          For Better Financial Controls

Inspection Report No. OSE-8797-7-0002 / September 1997




                           Office of Systems Evaluation
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    NOAA's Satellite Program Funding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    Satellite Acquisition Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    I. Excess Funds Found in Other Satellite Accounts . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
            A.      $36 Million in Excess Funding for Polar Launch Services . . . . . . . . . . . . 6
            B.      $7.3 Million in Excess Funding for NASA Polar
                    Technical Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
            C.      $29.1 Million in Excess Funding for GOES I-M Spacecraft . . . . . . . . . . . 8
            D.      $26.9 Million in Excess Funding for GOES Technical Management and
                    Launch Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
            E.      $7.4 Million GOES N-Q Spacecraft Shortfall and $12.6 Million Net
                    Reallocation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
    II. Efficient Funding Requires Adequate Financial Management Controls . . . . . . . . . . . 9
            A.      Scrutinize Millions in Funding Set Aside for Undelivered Orders . . . . . . . 9
            B.      Use NASA Financial Reports to Prevent Excess Funds . . . . . . . . . . . . . 11
            C.      Update Written Agreements to Provide a Basis for Funding Decisions . 12
            D.      Ensure Costs are Captured and Properly Presented in Budgets . . . . . . . 12

CONCLUSION AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

FUNDS TO BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

APPENDIX I: NOAA’s Polar and Geostationary Satellite Programs

APPENDIX II: The Department’s Response to the Draft Report
OFFICE OF INSPECTOR GENERAL
FINAL INSPECTION REPORT
NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION
EXCESS SATELLITE FUNDING INDICATES NEED FOR BETTER
FINANCIAL CONTROLS

EXECUTIVE SUMMARY

NOAA manages two weather satellite programs: the polar orbiting and geostationary operational
environmental satellite (GOES) systems. Over the next five years, NOAA plans to request about
$2.6 billion in budget authority for acquiring satellites; operating command, control, and data
acquisition stations; and developing new ways of using satellite data. NOAA components
determine the general requirements for new satellites and its National Environmental Satellite,
Data, and Information Service (NESDIS) operates them once they are in orbit. The National
Aeronautics and Space Administration (NASA) manages the acquisition and launch of the
satellites. Although satellite funding is summarized for congressional reviewers, many distinct
components are tracked at the Department level. For example, NOAA satellite budgets include
funding to be used by NOAA, as well as funds to be used by NASA to acquire polar and
geostationary spacecraft and launch services and to pay salaries, expenses, and travel costs for its
technical management teams.

Budget authority is a tool used by OMB and the Congress to control future outlays of taxpayer
funds. These decision-makers limit the amount of annual budget authority to control government
spending and ensure that tax dollars are available to meet expenses. For NOAA, an agency that
has to operate under tight budget ceilings, efficient funding of its satellite programs should be one
of its highest priorities because satellite funding represents close to 25 percent of the agency’s
budget authority. For example, NOAA’s FY 1998 satellite budget request of $372.2 million
exceeded the planned operating budgets of every other NOAA component except the National
Weather Service, and its FY 1999 request of $566.2 million for satellite programs will probably
exceed the operating budgets of every NOAA component.

In this report we discuss $79.3 million in NOAA satellite funds designated for NASA use that we
believe can be better used to support other NOAA critical program needs or to reduce NOAA’s
FY 1998 and FY 1999 satellite budget requests.1 These funds, coupled with $101.3 million in
excess funds for NASA acquisition of polar spacecraft reported in an earlier OIG inspection
report, equate to $180.6 million in funds to be put to better use. The excess funding represents




1
The $79.3 million in funds to be put to better use represents excess funds of $91.9 million less
NOAA reallocations of $12.6 million and is discussed more fully on page 16 of this report.

                                                  i
Office of Inspector General                                                Final Inspection Report

NOAA budget authority that is not needed to meet NASA’s current year cost and forward
funding requirements.

Although NOAA has been sending excess funds to NASA for years, this practice went
unquestioned because NOAA lacks adequate financial controls to guide the efficient use of its
budget authority. NOAA’s budget handbook provides the agency policy and financial controls for
the proper execution of budget authority. However, the financial controls in the handbook stress
tracking obligations to ensure that they do not exceed budget authority, giving little emphasis to
when funds should be obligated or to tracking if and when funds are used after they are obligated.
At the end of FY 1996, NOAA managers had obligated but not spent close to $885 million to
acquire goods or services (including satellites). We believe that the lack of NOAA guidance on
the use of budget authority results in the accumulation of large amounts of unspent funds, as we
found at NASA, and creates a false impression that budget estimates are accurate and programs
are proceeding as planned.

NOAA needs to make sure its satellite program managers have tools for making funding
decisions. We found that program managers could limit excess funding at NASA by using NASA
quarterly reports that identify the status of funds transferred and the need for additional funding.
In addition, NOAA should take steps to ensure that transfers to NASA for services are supported
by written agreements and that costs are properly captured and presented in its capital asset
budgets.

Our principal recommendations are that the Department work with NOAA, OMB and the
Congress to reduce excess funding and instill financial controls to prevent the accumulation of
excess funds. This process should start with instituting financial controls to guide funding
decisions and continue with implementing processes to track the use of obligated but uncosted
funds. Ultimately, the measure of NOAA’s financial management performance will be its ability
to control and track its acquisition projects and produce budget estimates that more accurately
reflect needs.

The Department and NOAA concur with our report findings and recommendations. A synopsis
of their response to each of our recommendations and our comments begins on page 13. Their
complete response is included as appendix II.




                                                 ii
Office of Inspector General                                                 Final Inspection Report

INTRODUCTION

We conducted our first inspection of NOAA polar spacecraft funding because of large amounts of
unspent NOAA funds accumulating at NASA. During our survey of NOAA satellite program
management, we were told that NASA was projecting over $140 million in unspent NOAA funds
for the acquisition of polar spacecraft by the end of FY 1996. We became increasingly concerned
that excess funds were being transferred to NASA instead of being reported as carryover, and on
September 16, 1996, we requested that the Deputy Under Secretary for Oceans and Atmosphere
not send NASA additional FY 1996 funds that were pending transfer. As a result, NOAA
reported to us that it had $88 million in FY 1996 unobligated carryover in its satellite programs.

In our report, Excess Funding in NOAA’s Polar Orbiting Satellite Program (OSE-8797-7-0001,
March 10, 1997), we discussed NOAA’s practice of sending excess funds to NASA, where they
become difficult to track. In response to our inspection findings, the Department and NOAA
have taken steps to reduce excess funding including reducing the amount of forward funding of
NASA programs to an amount sufficient for two instead of three months, requiring quarterly
reports of NASA use of NOAA funds, and reducing and reallocating over $100 million in funding.

Although satellite funding for the polar and GOES programs is appropriated in two line items,
many distinct components are tracked at the Department level. For example, NOAA satellite
budgets include funding for NASA to acquire polar and geostationary spacecraft and launch
services and to pay salaries, expenses, and travel costs for its technical management teams, as well
as funds for NOAA use. This inspection focuses on the NASA funding categories that were not
covered in our first inspection: polar launch services, geostationary spacecraft and launch
services, and NASA technical management (for both satellite systems).

Throughout the report, we substituted the term “funds” or “funding” for the new obligational
authority that NOAA receives through its annual appropriation that allows it to enter into
financial obligations that will result in immediate or future outlays of federal funds. An allocation
is the portion of NOAA’s current year appropriation designated for polar satellite and GOES
programs. We use the term “transfers” to represent the passing of obligational authority from
NOAA to NASA. NOAA records funds transferred to NASA as obligations. An “unobligated
balance” is funding that has not been obligated or transferred to NASA. Not all funding
transferred to NASA is immediately used to pay costs. NASA refers to funds received by NOAA
as “available” and uses the term “uncosted obligation” to refer to funding that has been obligated
on contracts for services that have yet to be received. Similarly, NOAA refers to all funds
obligated, or in the case of the satellite program, transferred to NASA as funds for “undelivered
orders,” which means the portion of funding obligated where goods or services have not been
received. We refer to all funds that have not been spent by NASA as “unspent or unused
funding.” “Forward funding” is the amount of available and uncosted funding needed by NASA



                                                  1
Office of Inspector General                                               Final Inspection Report

until the next fiscal year’s funding is transferred by NOAA. We use “excess funding” to represent
funding that is not needed to meet NASA current year or forward funding requirements.

Our calculation of excess funds is based on an assessment of funds not needed to meet FY 1997
cost or forward funding requirements. To calculate the excess funding for each account, we
added unobligated budget authority from FY 1996 and earlier years to the FY 1997 allocation.
We then added funds obligated by NASA but not costed (or spent), and subtracted NASA’s FY
1997 cost estimate, which includes contingency funding, and two months of additional funds for
forward funding. The Department recently approved NOAA’s change of forward funding
allowed for NASA acquisition activities from three to two months, which increased the amount of
excess funding in the satellite accounts.


                               CALCULATION OF EXCESS
                                    FY1997 FUNDS
                          + Available Funds
                            % Unobligated FY1996 & Earlier
                            % FY1997 Allocation
                            % Obligated FY 1996 & Earlier Unspent
                           - FY 1997 Cost & FY 1998 Forward Funds
                            & NASA FY 1997 Cost Estimate
                            & Forward Funding for FY 1998

                          = EXCESS FUNDS




PURPOSE AND SCOPE

This is the second of two inspection reports on excess funding for NOAA satellite programs. The
purpose of both inspections was to evaluate how NOAA program managers identify and report
unspent funding and to determine the amount of excess funding. Funding for polar spacecraft
acquisition was covered in our prior report, where we identified that the primary reasons for
excess funding were NOAA’s failure to adjust its budget requests to reflect decreased spending
and inappropriately transferring funds from its ground systems budget to NASA.

Our fieldwork was a continuation of the fieldwork begun in May 1996 that led to our first report.
In conducting our review, we worked with NOAA staff to ascertain the status of program
funding. We reviewed NASA program operating plans and NOAA guideline letters, budget
submissions, and financial operating plans. We also reviewed NASA policy on reimbursable

                                                2
Office of Inspector General                                              Final Inspection Report

agreements, the NASA Chief Financial Officer’s guidance for reducing unliquidated budget
authority in NASA-managed programs, the Commerce-NASA Memorandum of Agreement
regarding satellite services, and the Department and NOAA budget handbooks.

We evaluated the methodology employed by NOAA and the Department to identify and report
excess funding and assessed NOAA’s compliance with OMB Circular A-11 and internal controls
intended to prevent the accumulation of excess funding. We discussed our findings with program
and budget officials at NOAA and briefed NOAA’s Under Secretary for Oceans and Atmosphere,
Assistant Administrator for Satellite and Information Services, and Director of Systems
Acquisition; and the Department’s Acting Chief Financial Officer and Assistant Secretary for
Administration and its budget examiner responsible for NOAA satellite programs.

Our work was performed in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on Integrity
and Efficiency.

BACKGROUND

Over the next five years, NOAA plans to request about $2.6 billion in budget authority for
acquiring polar and geostationary satellites; operating command, control, and data acquisition
stations; and developing new ways of using satellite data. Pursuant to a 1973 Department of
Commerce-NASA memorandum of agreement, NOAA satellites are acquired by NASA. The
images and data provided by the satellites support NOAA’s National Centers for Environmental
Prediction and weather service offices across the country in their severe weather warning and
forecasting missions. Other NOAA bureaus, government agencies, and a plethora of public and
private institutions, both in the United States and abroad, benefit from NOAA’s satellite
investment and use satellite data for climate monitoring and analysis and oceanographic
applications. Details about NOAA's polar and GOES satellites are included in Appendix I.

NOAA is also a key player in the 1994 Presidential Directive to converge U.S. civilian and
defense polar satellite programs. The “convergence” program is expected to provide a National
Polar Orbiting Environmental Satellite System (NPOESS) to reduce the government’s cost of
acquiring polar satellite data and providing ground support. NPOESS will be the next generation
of NOAA and Department of Defense satellites.

NOAA's Satellite Program Funding

NOAA’s satellite agency, NESDIS, administers and controls all NOAA satellite funding.
NESDIS retains some funds for its own use and distributes funding for the convergence program
to the Air Force/NOAA Integrated Program Office and for the GOES and polar programs to




                                               3
Office of Inspector General                                                                                 Final Inspection Report

NOAA’s Systems Acquisition Office (SAO).2 During FY 1995, acquisition responsibilities were
moved from NESDIS to SAO because of SAO’s role as the NOAA designated acquisition office.
SAO’s polar and GOES programs are responsible for the development of spacecraft and ground
systems, oversight of the acquisition services provided by NASA, and budget planning and
execution. SAO receives funding from NESDIS incrementally and issues purchase orders that
transfer funds for NASA use in acquiring polar and GOES spacecraft and launch services. NASA
tracks the status of funds and provides the SAO with reports of cost and funding needs. SAO
prepares budget requests based on NASA needs and forwards these budgets to NESDIS. Table 1
provides details on planned satellite funding over the next five years.

    Table 1: NOAA FY 1998-FY 2002 Satellite Budget (in Millions)
                                                                 FY98        FY99        FY00        FY01        FY02        TOTAL
    POLAR SATELLITE FUNDING
    NESDIS R&D, Ground System Support          $ 17.4                       $ 17.3      $ 16.6      $ 13.4      $ 12.4         $ 77.1
    IPO Convergence Program                      51.5                         35.0        65.0       104.0       149.0          404.5
    SAO Program Management & Technical Support    2.5                          2.0         2.0         2.0         2.0           10.5
     Subtotal                                    71.4                         54.3        83.6       119.4       163.4          492.1
    Transfers to NASA:
      NOAA K-NN & METOP Instruments1             48.3                       119.8   75.7              46.1        33.7          323.6
      Launch K-NN                                 7.8                        26.5   27.5              16.5        20.4           98.7
      Technical Management                        7.0                         7.1    7.3               7.4         6.6           35.4
     Subtotal                                    63.1                       153.4  110.5              70.0        60.7          457.7
    Total Polar                              $134.5                        $207.7 $194.1            $189.4      $224.1         $949.8
    GOES PROGRAM
    NESDIS Operation & Ground System Support  $19.5                         $ 18.8      $ 18.8      $ 18.8       $ 18.8        $ 94.7
    SAO Program Management & Technical Support 5.0                             5.0         5.0         5.0          5.0          25.0
      Subtotal                                 24.5                           23.8        23.8        23.8         23.8         119.7
    Transfers to NASA for:
     Spacecraft I-M                            31.5                           31.2   18.2             18.0        17.8          116.7
     Launch I-M                                47.7                           65.5   52.1             47.2         2.0          214.5
     Spacecraft N-Q                           122.5                          187.5  210.7            194.9       172.1          887.7
     Launch N-Q                                 5.0                           43.7   79.7             72.9        41.2          242.5
     Technical Management                       6.5                            6.8    6.9              7.1         7.4           34.7
     Subtotal                                 213.2                           334.7 367.6            340.1       240.5        1,496.1
    Total Geostationary                      $237.7                         $358.5 $391.4           $363.9      $264.3       $1,615.8
    Total Satellite Funding                                  $372.22 $566.2 $585.5 $553.3 $488.4 $2,565.6
1
 NOAA purchase of instruments that will be flown on European meteorological operational polar satellite (METOP). See Appendix I for details.
2
 FY98 budget request significantly lower than out-years because of OIG recommended reductions in excess spacecraft funding (OSE-8797-0001, March 6,
1997).
2
 NESDIS funding is used to operate, maintain, and acquire the resources needed by the Satellite
Operational Control Center; Command and Data Acquisition facilities; and ground systems used
to track the satellites, download the satellite data, generate satellite data products, and
disseminate the data to all of the satellite users. The Integrated Program Office (IPO) consists of
NOAA, Air Force, and NASA staff and was set up to develop a converged Air Force-NOAA
polar program to replace the existing NOAA and Air Force polar satellite programs. Although
funding for the convergence program is in NOAA’s satellite budget, we did not include it, or any
of the NESDIS funding, in our analysis of excess funds.

                                                                      4
Office of Inspector General                                                 Final Inspection Report

Satellite Acquisition Management

NOAA satellites are acquired by NASA’s Goddard Space Flight Center under its Mission to
Planet Earth program. To manage the satellite acquisition process, NASA has polar and GOES
project teams consisting of contracting officers, technical representatives, and program and
financial managers. The project teams use the requirements outlined by NOAA and contractor
cost and schedule estimates as the basis for identifying funding needs.

NASA negotiated a cost-plus-award-fee, level-of-effort contract for NOAA K, L, M3 with Martin
Marietta, now Lockheed Martin, in FY 1988. The contract was amended to include NOAA N
and Nr in FY 1994. NASA awarded separate contracts for the spacecraft instruments to be
carried on the spacecraft bus including three over $100 million cost-plus-award-fee contracts, two
to Aerojet Asuza Operations and one to ITT. Once completed, the instruments are supplied to
Lockheed Martin by NASA for integration with the satellite bus. NASA and SAO are addressing
a series of issues with the current development, including ensuring that quality does not suffer as a
result of the loss of experienced staff due to the impending closure of Lockheed Martin's
production facility in New Jersey.

NASA negotiated a cost-plus-award-fee contract with Space Systems Loral for the current series
of GOES I-M spacecraft in FY 1985. GOES I-M instruments are being developed by ITT.
Because of technical problems and cost growth, the program operates under a Congressionally-
mandated cost cap of $1.2 billion. NASA is planning to award a fixed priced contract for the
design and development of GOES N and O, with options for GOES P and Q in the first quarter of
FY 1998.

NOAA launch services are handled in a variety of ways. NASA arranged for the Air Force to
provide NOAA K-M polar launch services and plans to acquire NOAA N and NN launch services
directly through a contract with McDonald Douglas. The GOES launch services are acquired
through a separate contract with Lockheed Martin. NASA directs funding to the appropriate
NASA centers that oversee the contracts. For NOAA K-M satellites, funding is transferred to the
Air Force by NASA's Goddard Space Flight Center and for GOES, funding is sent to the Lewis
Research Center in Cleveland, Ohio.

OBSERVATIONS AND CONCLUSIONS

I. Excess Funds Found in Other Satellite Accounts

Since our first report, we have worked closely with NOAA staff to identify satellite accounts with
excess funds. By identifying all of the sources of available funds, subtracting funds needed for
NASA management costs and to pay current year contractor costs, and setting aside 2 months of


3
 NASA refers to the Polar spacecraft as “NOAA” followed by the letter designating the spacecraft
under development.

                                                 5
Office of Inspector General                                               Final Inspection Report

funding for NASA to use as forward funding, our draft report identified $61.3 million in excess
funds. Since issuing our draft report, the amount of excess funds increased to $91.94 million
primarily because NASA did not spend as much as it estimated in FY 1997. However, NOAA
reallocated $12.6 million of these funds to support other program needs, decreasing the excess to
$79.3 million. A discussion of the satellite account funding balances follows.



                        Satellite Accounts with Excess and
                            Shortfalls in FY97 Funding
                                      (millions)

                       $ 36.0    Polar Launch Services
                          7.3    Polar Technical Management
                         29.1    GOES I-M Spacecraft
                          1.3    GOES Technical Management
                         25.6    GOES Launch Services
                        $99.3    Funding Excess
                         (7.4)   GOES N-Q Spacecraft Shortfall
                       $ 91.9    Net Funding Excess
                        (12.6)   NOAA Reallocation of Excess
                       $ 79.3    Funds to be Put to Better Use



Excess funding is detailed in table format in the Funds To Be Put To Better Use section of this
report on page 16.

A.     $36 Million in Excess Funding for Polar Launch Services

The $36 million in excess funds we identified represents the difference between funds available of
$65.5 million and funds needed to meet the Air Force cost and forward funding estimate of $29.5
million. Excess funding accumulated in this account because the current series of polar satellites
are lasting longer than estimated and NOAA has not had to launch its replacement satellites as
planned. As initially envisioned, NOAA K-M satellites were to be launched in FY 1993-95. An
agreement for satellite launch services negotiated between NASA and the Air Force included the
use of NOAA funding to pay for refurbishing spare Titan II missiles for use as launch vehicles, use
of the launch pad, maintenance services, and technical launch support. Although NOAA has yet



4
 These funds represent $99.3 million in excess funding for polar launch services and technical
management and GOES I-M spacecraft, technical management, and launch services that was
offset by a $7.4 million shortfall for GOES N-Q spacecraft

                                                6
Office of Inspector General                                               Final Inspection Report

to launch NOAA-K, L, or M, it has transferred approximately $100 million to the Air Force for
these services, including prefunding for the launch of NOAA-K.

NOAA officials originally believed that none of the funding was excess because these funds are
needed by the Air Force to prepay NOAA-L launch services and complete other contract work.
However, we were unable to confirm whether the Air Force needed these funds or the basis for
NOAA’s assertion. The Air Force project manager was in the process of reconciling NOAA
funds transferred with actual costs and provided us with estimated FY 1996 and prior costs,
which we used in our report. The project manager explained that part of the problem in
determining funding needs was that NOAA and the Air Force are using the same contract for
launch pad maintenance and launch services, and it is not always clear what percentage of the
annual costs should be paid by NOAA. Another reason the Air Force program manager was
reconciling the cost was that he believed one of the contractors had understated the amount of
funds that it had available for use.

NASA officials were unable to provide us with details on contracts because they did not have
copies of the Air Force contracts, nor did they have a written agreement with the Air Force
describing the services and associated costs.

Even if its assessment of funding needs is accurate, we still believe that NOAA should not transfer
the $36 million for the following reasons: NOAA's plans to transfer funds for a NOAA-L launch
appear to be premature since this satellite has a planned launch date in FY 2000. In addition, the
lack of information on expended and available funds provides little assurance that current funding
is being used as planned.

B.     $7.3 Million in Excess Funding for NASA Polar Technical Management

The $7.3 million in excess funds we identified for polar technical management represents the
difference between funds available of $14.3 million and funds needed to meet NASA costs and
forward funding of $7 million. The excess funding results from NOAA’s not adequately tracking
available funds at NASA. NOAA uses NASA’s estimates of the need for funding as a basis for its
budget requests; however, these estimates can be overstated because they do not always reflect all
funds transferred by NOAA in prior years. For example, NOAA transfers have been held at
NASA headquarters and issued as subsequent year funds because they were not needed by the
program or were transferred so late in the fiscal year that they were held for issuance in the
following year. In addition, NOAA’s unplanned end-of-year transfers are not reflected in
NASA’s estimates. For example, NASA’s funding needs were overstated by $4.8 million in its
March 1996 Polar Technical Management plan provided to NOAA because NASA headquarters
had not issued $3 million in FY 1995 transfers to the program and NOAA sent $1.8 million after
NASA completed its estimate. If NASA had included these funds in its analysis, its request for
new obligational authority would have been reduced by 73 percent--from $6.6 million to $1.8
million.




                                                7
Office of Inspector General                                                 Final Inspection Report

We found a similar problem when reviewing NOAA funding transfers on the polar spacecraft
program (see OSE-8797-0001, page 9). NASA’s identification of its funds available often
reflected funds transferred by NOAA in prior years and did not always include all funds
transferred in the current fiscal year. To identify the amount of funds available for use by the
program, we had to request special accounting reports from NASA and track NOAA purchase
orders to NASA’s fiscal year use of the funds. To address this problem, NOAA is now using
these reports to reconcile the amount NASA recorded as received during a fiscal year versus the
amount NOAA transferred during the same year to ensure that NASA reports of funds available
represent all funds transferred by NOAA.

C.     $29.1 Million in Excess Funding for GOES I-M Spacecraft

The $29.1 million in excess funds for NOAA’s GOES I-M spacecraft program represents the
difference between funds available of $86.5 million and funds needed to meet NASA costs and
forward funding of $57.4 million. The excess funds resulted from NOAA’s decision to direct
additional forward funding and unobligated NESDIS ground system funds to NASA. NOAA
stated that these funds were sent in FY 1995 because they were available and NASA had
identified a need for additional contingency funding in the upcoming years. NOAA also did not
want to report unobligated carryover in its ground system program.

D.     $26.9 Million in Excess Funding for GOES Technical Management and Launch Services

The $26.9 million in excess funds in GOES technical management and launch services represents
the difference of funds available of $76.8 million ($9.7 million and 67.1 million, respectively, less
funds needed to meet NASA cost and forward funding of $49.9 million ($8.4 million and $41.5
million, respectively). Excess funds in these accounts result primarily from NASA over estimating
GOES launch costs by $25 million and changing from 3 months of forward funding to 2 months.

E.     $7.4 Million GOES N-Q Spacecraft Shortfall and $12.6 Million Net Reallocation and
       Reprogramming

The $7.4 million shortfall for the GOES N-Q spacecraft program represents the difference
between funds available of $58.2 million and the cost and forward funding requirement of $65.6
million. The shortfall in this account results primarily from a planned contract award in the first
quarter of FY 1998. The two month forward funding amount would not provide sufficient funds
for awarding the contract. The $12.6 million net reallocation represents funding that was used to
support other NOAA programs. The $12.6 million is the net difference between $20.9 million of
excess funds that NOAA reallocated, $8.3 million of which was used to offset the GOES N-Q
shortfall.




                                                 8
Office of Inspector General                                               Final Inspection Report

II. Efficient Funding Requires Adequate Financial Management Controls

Budget authority is a tool used by OMB and the Congress to control future outlays of taxpayer
funds. These decision-makers limit the amount of annual budget authority to control government
spending and ensure that tax dollars are available to meet expenses. For NOAA, an agency that
has to operate under tight budget ceilings, efficient use of its budget authority is especially
important. Knowing what it spends in a given year (budget execution) will give NOAA
administrators insight into what additional amounts will be needed in the future years (budget
formulation).

Although NOAA has been sending excess funds to NASA for years, this practice went undetected
because NOAA lacks adequate financial controls to ensure the efficient use of its budget
authority. NOAA’s budget handbook provides the agency policy and financial controls for the
proper execution of budget authority. However, the financial controls in the handbook stress
tracking obligations to ensure that they do not exceed budget authority, giving little emphasis to
when funds should be obligated or to tracking if and when funds are used after they are obligated.
Once obligated, the excess satellite funding is hard to detect because NOAA does not adequately
track NASA’s use of the obligational authority. This not only results in substantial unspent
funding but also creates a false impression that budget estimates are accurate and the program is
proceeding as planned.

We believe that NOAA needs to evaluate its system of financial management controls to ensure
that they provide for the best use of funding for all of its programs. To make accurate
assessments of funding needs that translate into budgets, the Department needs to ensure that
efficient funding decisions are being made. The Department has started to implement an
improved process in response to the recommendations in our earlier report, including requiring
the reporting of carryover, creating a reporting process to identify satellite program performance
and spending, and limiting fund transfers to NASA. In the following sections, we identify other
financial controls that we believe will improve NOAA’s ability to make efficient funding decisions.


A.     Scrutinize Millions in Funding Set Aside for Undelivered Orders

Excess funding for satellites is categorized by NOAA as budget authority obligated for which
services have yet to be delivered or “undelivered orders.” We believe that these funds went
undetected because NOAA did not adequately scrutinize these obligated funds. Often it is not
clear how much program funding is excess. For example, NOAA used many different purchase
orders to transfer satellite funds to NASA. Looking at reports that identified these purchase
orders as unspent funds, it would be difficult to determine how much funding is obligated for a
specific program versus how much is needed. The number of orders and the way that NOAA
records these balances make detecting excess funds in any NOAA program difficult. The process
that creates obligated but unspent funding is shown in the figure below.




                                                9
Office of Inspector General                                                    Final Inspection Report



           NOAA Process That Creates Obligated But Unspent Funding


                                        FY Allocation of
                                        Budget Authority
                                          (Funding $)



                         NESDIS                               NOAA Agencies
                Obligations $ . Satellite           Obligations $   . Goods/Services
               Using purchase orders to fund        Using purchase orders, task orders,
               the purchase of satellites           contract modifications, etc. to fund the
                                                    purchase of goods or services




Undelivered orders represent the amount of budget authority that has been obligated against
contracts, purchase orders, interagency agreements, or other contractual documents for services
or supplies that have yet to be delivered. There can be legitimate reasons for an agency to
accumulate large amounts of unspent funding for undelivered orders. For example, some agencies
receive funding for large procurements all in one year, even though those funds will be spent over
several years. Most NOAA programs, however, receive additional funding annually, so that large
amounts of unspent funding should signal that additional funds may not be needed. NOAA’s
undelivered orders balance at the end of FY 1996 was $885 million. The $885 million represents
close to half of NOAA’s FY 1997 appropriation or enough funding for 6 months of NOAA
operations.

To prevent the increasing amounts of obligated but unspent funding at NASA, the Chief Financial
Officer recommended financial controls that would limit the amount of funds that can be obligated
but unspent at the end of the fiscal year to the amount required to forward fund contractor
operations for two months. Similarly, by recommending controls to limit NOAA obligations on
purchase orders that transferred satellite funding to NASA, we were able to prevent additional

                                               10
Office of Inspector General                                                  Final Inspection Report

pooling of unspent satellite funds as NOAA undelivered orders. We believe that if NOAA applied
this practice to all of its annually funded acquisitions, it could identify additional excess funds and
adjust its budget requests accordingly.

B.     Use NASA Financial Reports to Prevent Excess Funds

In response to findings in our first report, a NOAA program analyst is working with NASA to
create monthly status reports of NOAA fund transfers to reflect the amount of unobligated funds,
uncosted obligations (funds that were obligated by NASA for goods and services not yet
completed by a contractor), and payables and expenditures. Quarterly planned and actual
accomplishments should be included with the status of funding. NOAA and departmental
managers should use the information to determine whether excess funds are being applied to
contracts (obligated) and whether obligations are outpacing spending.

The reports will also provide NOAA with information that it can use to adjust budget requests
and limit planned transfers and forward funding when excess funding accumulates. As
recommended in our earlier report, the decision to forward fund should be justified based on
NASA's actual need for these funds. If NOAA’s end-of-year analysis of NASA funding indicates
that NASA has sufficient balances of unobligated or uncosted funds to meet its first quarter needs,
NOAA should not send the additional funds. NOAA’s fourth quarter analysis of the status of
funds already transferred to NASA will determine more precisely the amount actually needed.

NOAA should also use these reports to track how well actual costs are meeting the estimates to
prevent another cause of excess funds. For example, NASA estimated costs for FY 1997 as
$199.5 million. However, if schedules slip or contractors are unable to staff projects as estimated,
this cost estimate may not be met. In our earlier report on the acquisition of polar spacecraft, we
found that a primary reason that excess funding accumulated was because NASA cost estimates
were inflated by approximately 16 percent. Although we did not analyze the cost estimates of the
programs covered by this report, there is some evidence that they too may be overstated. For
example, the cost estimate for polar launch services included the cost to launch NOAA-K in FY
1997. However, this launch has been delayed until the second quarter of FY 1998. If the award
of the GOES N-Q contract slips from its planned time frame of first quarter FY 1998, the
estimated shortfall in this program may be more than adequately offset by the schedule slip.

C.     Update Written Agreements to Provide a Basis for Funding Decisions

In two areas, written agreements would provide a better basis for making funding decisions. The
lack of an agreement with the Air Force on what services can be provided in the short and long
term for launching polar satellites, was discussed earlier in this report. Without an agreement,
NOAA can only guess whether the Air Force launch pad will be available to launch its satellites.
Continued funding for these services, which may not actually be provided, increases the risk that
funds will not be used as planned or will not be immediately available if alternative launch services
have to be procured. The other area that would benefit from a written agreement is NOAA’s



                                                  11
Office of Inspector General                                                 Final Inspection Report

acquisition of instruments for the European METOP satellites. NOAA plans to replace its AM
polar satellite with a European meteorological operational polar (METOP) satellite in
FY 2002. Under provisions of the draft agreement, the METOP satellite will be launched and
operated by the European Organization for the Exploitation of Meteorological Satellites. NOAA
is responsible for the acquisition of some of the instruments that will be flown on the METOP
satellite and is acquiring the instruments through its NOAA K-NN program. While NOAA should
benefit greatly from the use of one of these satellites to replace its own AM polar satellite, we
believe that spending millions of dollars for instruments without first obtaining a written
agreement is risky. Although the U.S. and Europeans agree on the language in the agreement, it
has not been formally approved by the administration. The Europeans are expected to commit
funding for the first three METOP satellites this fall.

D.     Ensure Costs are Captured and Properly Presented in Budgets

In response to the 1993 National Performance Review recommendations to protect the
government’s investment in fixed assets, agencies are required to provide more detailed
information about their investments in such assets to OMB as part of their annual budgets. OMB
plans to use this information to review requests for funding of fixed assets and evaluate new and
ongoing projects. OMB Circular A-11, part 3, provides guidance to agencies on planning,
budgeting, and acquisition management of fixed assets.5 NOAA made its first submission to fulfill
this guideline as part of its FY 1998 budget. During our review we noted that NOAA does not
accurately report spending by asset account. For example, the $40 million in funding originally
designated for ground systems was transferred to NASA because NOAA was unable to use the
funding for ground systems as originally intended. However, in subsequent year budget requests
these funds were not moved to the spacecraft funding line, which understated the amount invested
for spacecraft and overstated the cost of ground systems.

One reason NOAA may be having difficulty reporting on its satellite capital accounts is that
satellite costs are not being properly recorded or supported. We discuss this problem in our
report, Audit of NOAA’s FY 1996 Financial Statements (FSC-8841-7-0001, February 26, 1997),
where we noted that NOAA’s property, plant, and equipment account was misstated because
satellite costs are not properly maintained, recorded, and disclosed in the financial statements.
These findings underscore the link between the lack of financial controls for tracking the use of
satellite funds with inaccurate information in satellite budget requests. To best support the
government’s initiative, we believe NOAA should ensure that its satellite capital asset budgets
accurately reflect prior year funding for each satellite account.




5
 OMB Circular A-11 (revised) Transmittal Memorandum 68, defines spending for fixed assets to
include construction, major rehabilitation, and the purchase of fixed assets such as land, buildings,
equipment, and information technology owned by the Federal Government.

                                                 12
Office of Inspector General                                                Final Inspection Report

CONCLUSION AND RECOMMENDATIONS

Efficient funding of its satellite programs should be one of NOAA’s highest priorities because
those programs represent close to 25 percent of the agency’s budget authority. For example,
NOAA’s FY 1998 satellite budget request of $372.2 million exceeded the planned operating
budgets of each NOAA component except the National Weather Service, and its FY 1999 request
of $566.2 million for satellite programs will probably exceed the operating budgets for all other
NOAA bureaus. Decisions about the efficient use of budget authority are becoming more
important as budget authority is being reduced in an effort to reduce the federal debt. Ironically,
while NESDIS has excess funding, the National Weather Service, one of the primary users of the
satellite data, has taken steps to conduct reductions-in-force because of a lack of funding.

The Chief Financial Officers (CFO) Act of 1990, the National Performance Review and
Government Performance and Results Act of 1993, and the Government Management and
Reform Act of 1994 were all designed to improve the way federal agencies manage their
programs. Our recent audit report, Department of Commerce’s Consolidating Financial
Statements, Fiscal Year 1996 (FSD-9355-7-0001, March 1997), conducted under the CFO Act,
found that financial management and internal controls across most bureaus are not sufficient to
preclude financial reporting problems. As our inspection of excess satellite funding reveals, the
lack of financial controls not only creates reporting problems but also can result in millions of
dollars in excess funding for some programs, while other programs may desperately need funds.
Clearly NOAA’s goal of providing satellite continuity is critical, and sound program and financial
management should be exercised in achieving that goal. Preventing excess funding starts with
financial controls to guide funding requests and continues through the identification of such funds.
The ultimate goal is to produce more accurate budget estimates which request no more funds than
are needed.

The Department is working to create a more efficient budget process. We believe this process
should be a high priority and should not only include a careful accounting of unobligated funds
but should also include the use of all obligated but unspent funds. To accomplish this, we
recommend that the Department’s Acting Chief Financial Officer and Assistant Secretary for
Administration work with NOAA, OMB and Congress to reduce the $79.3 million in excess
funding by:

!      Justifying any planned use of the excess funds and adjusting the FY 1998 and out-year
       budgets to reduce the remaining excess.

       Synopsis of the Department’s Response and OIG Discussion

       The Department replied that it identified $79.3 million as unobligated carryover (as of
       June 1997) that was available for reprogramming or reduction to its FY 1998
       appropriation. The Department stated further that its used $59.9 million in projected FY
       1998 carryover to reduce its FY 1999 budget request. The Department concluded that
       further reductions of funds by reprogramming, or by a reduction in the FY 1998

                                                13
Office of Inspector General                                                  Final Inspection Report

       appropriation would require a corresponding increase in the FY 1999 funding request, all
       things being equal. 6

       The Department actions involved with identifying the $79.3 million in excess funds, using
       these funds to offset its FY 1998 requirements, and reducing its FY 1999 budget request
       by the remaining $59.9 million comply with our recommendation to justify the use of
       excess funds and reduce out-year budgets. However, we do not concur with the
       Department’s assessment that further reductions in FY 1998 will have to be restored in
       FY 1999. Given the history of satellite budget estimates being higher than the cost
       incurred and the associated forward funding, we believe the Department needs to closely
       monitor NOAA’s use of its FY 1998 funding. As the year progresses, the Department will
       have a better idea of funding needs for FY 1999.

       Just prior to issuing this report we received updated budget information from NOAA and
       noted that for some accounts forward funding appears to be more than the 2 month limit
       recently adopted by the Department. We suggest that the Department validate forward
       funding requirements and the need for what appears to be more than 2 months of forward
       funding.

!      Using quarterly reports on the status of funds transferred to NASA, including funds
       available for obligation (unobligated funds), uncosted obligations (funds that were
       obligated by NASA for goods and services that have not yet been billed by the
       contractor), payables, and expenditures to determine funds that are not needed to meet
       fourth quarter forward funding and report these funds as unobligated carryover.

Synopsis of the Department’s Response and OIG Discussion

       The Department replied that it is being provided quarterly reports that track NASA’s
       actual costs and obligation and the status of NOAA funds.

       We concur with the Department’s actions.




6
 In its response to our specific recommendation the Department identified the excess funds as
$127.4 million. We clarified this with the Department, and were told that the $127.4 million
includes the $79.3 million referred to in this report plus an additional $48.1 million primarily for
polar spacecraft included in our prior report.

                                                  14
Office of Inspector General                                                 Final Inspection Report

We also recommend that the Department’s Acting Chief Financial Officer and Assistant Secretary
for Administration direct NOAA to improve financial control of funds by:

!      Analyzing the $885 million in NOAA unspent funding identified as undelivered orders to
       determine if other NOAA acquisitions have excess funds.

       Synopsis of the Department’s Response and OIG Discussion

       The Department replied that NOAA has a vigorous program in place to track and recoup
       excess funding residing in undelivered orders and that this program has been given
       increased attention during the last several years.

       We are aware of NOAA’s deobligation activities. However, what this report and our
       prior report make clear is that funding is being obligated without a clear need for the
       funds or because NOAA does not want the funds identified as unobligated carryover.
       Our recommendation is directed to other NOAA programs that may have obligated more
       funding than needed for ongoing projects. Programs associated with large amounts of
       funding in undelivered orders may be overestimating budget needs. In order to ensure
       efficient use of scarce budget resources, we believe that NOAA should monitor these
       projects to ensure that budget requests reflect actual need for the funds.

!      Establishing limits for the amount of obligated but unspent funds that can be carried over
       into the next fiscal year for programs that receive additional funding each year.

       Synopsis of the Department’s Response and OIG Discussion

       The Department replied that increased diligence in analyzing unspent funds should apply
       the discipline necessary to eliminate excessive obligations and that arbitrary limits are not
       appropriate without analysis of the reason for the unspent funds.

       We concur with the Department’s assessment that arbitrary limits would not be
       appropriate but believe limits should be provided as guidelines. Careful attention to
       excessive forward funding of existing contracts is needed to adequately identify future
       funding needs.

!      Incorporating guidance in its budget handbook for making obligation decisions, including
       the recommendations made in both of our satellite funding reports.

       Synopsis of the Department’s Response and OIG Discussion

       The Department replied that NOAA will review its budget handbook to assure proper
       guidance for making obligation decisions.




                                                 15
Office of Inspector General                                              Final Inspection Report

       We concur with the Department’s action to have NOAA review its handbook. This review
       should include steps for incorporating additional guidance for making obligation
       decisions.

!      Providing funds for services or acquisitions only when supported by a written agreement
       that provide a basis for making sound funding decisions.

       Synopsis of the Department’s Response and OIG Discussion

       The Department replied that it agrees that written agreements are necessary to support
       sound funding decisions. In its overall response to our observation, the Department stated
       that in regards to funding of Air Force launch services, it is developing a revised
       agreement, but because of program uncertainties, is having difficulty with this process.
       The Department has taken steps to limit fund transfers to the Air Force pending adequate
       cost data on previously transferred funds. Also, a final agreement for METOP satellites
       has been negotiated and is pending State Department approval.

       We concur with the Department’s actions.

!      Working with OMB to ensure that capital asset budgets are properly presented and that
       they include performance measures related to meeting cost and schedule estimates for all
       ongoing acquisition projects.

       Synopsis of the Department’s Response and OIG Discussion

       The Department replied that it is working with NOAA and OMB to properly present the
       Capital Assets project accounts.

       We concur with the Department’s actions.

The Department’s complete response is included as appendix II of this report.




                                               16
             Office of Inspector General                                                         Final Inspection Report

             FUNDS TO BE PUT TO BETTER USE

             Our report recommends that NOAA retain $79.3 million in net excess funding, report these funds
             as carryover, and reduce FY 1998 and out-year budgets to reflect the excess. Our calculation of
             excess funds is based on an assessment of funds not needed to meet FY 1997 cost or forward
             funding requirements. We decreased the amount of excess funds to reflect larger amounts of
             forward funding and funds reallocated. Although we did not include these funds as part of the
             excess, the Department must ensure that the amounts of forward funding over 2 months is
             justified and that funds reallocated have been accounted for. To calculate the excess funding for
             each account, we added unobligated carryover at the end of FY 1996 at NOAA and NASA, the
             FY 1997 budget allocation and funds obligated by NASA for work in progress. The FY 1997
             cost estimate and forward funding requirements were subtracted from the available funding to
             determine excess funding. NOAA reallocations and reprogramming/holdings are shown in the
             next to the last row. This table was submitted to the OIG by NOAA just prior to issuance of the
             final report to reflect revised amounts for NASA funding on contracts for work in progress,
             reallocations, and cost and forward funding estimates.

    OIG Evaluation of Satellite Funding as of Fiscal Year End 97 (millions)

           Funding Category                          Polar                               GOES                            Total
                                               Launch     Technical    Spacecraft   Spacecraft   Technical   Launch
                                               Services    Mgmt.          I-M         N-Q         Mgmt.      Services
NOAA unobligated carryover                        $2.2        $2.0         $0.0         $5.3         $0.0      $0.0        $9.5
NASA unobligated funding                          $6.5        $5.7        $17.4        $13.5         $2.4      $8.9       $54.4
NOAA FY 1997 budget allocation                   $42.4        $6.6        $50.2        $31.4         $7.3     $49.0      $186.9
Unobligated funds available                      $51.1       $14.3        $67.6        $50.2         $9.7     $57.9      $250.8
NASA on contract for work in progress            $14.4        $0.0        $18.9         $8.0         $0.0      $9.2       $50.5
(obligated not spent)
Total unobligated and uncosted funds             $65.5       $14.3         $86.5        $58.2        $9.7      $67.1      $301.3
NASA FY 1997 cost estimate                     ($12.6)       ($5.3)      ($44.3)      ($27.6)      ($6.5)    ($30.8)    ($127.1)
(includes contingency funding)
2 months’ forward funding                      ($16.9)       ($1.7)      ($13.1)      ($38.0)      ($1.9)    ($10.7)     ($82.3)
Total cost and forward funding                 ($29.5)       ($7.0)      ($57.4)      ($65.6)      ($8.4)    ($41.5)    ($209.4)
Funding Excess                                  $36.0          $7.3        $29.1         $0.0        $1.3      $25.6       $99.3
(funding in excess of cost & forward funding
requirement)
Funding Shortfall                                                                      ($7.4)                             ($7.4)
Net Funding Excess                              $36.0          $7.3       $29.1        ($7.4)        $1.3     $25.6        $91.9
NOAA Proposed Use                               ($2.2)       ($6.7)       ($5.0)         $8.3        $0.0     ($7.0)     ($12.6)
(reallocations/corrections)
Balance                                          $33.8        $0.6        $15.2          $0.9        $1.3     $18.6       $79.3



                                                                  17
APPENDIX I                                                                                                    APPENDIX I

APPENDIX I: NOAA’s Polar and Geostationary Satellite Programs

NOAA’s Polar Orbiting Environmental Satellite Program

NOAA maintains two polar satellites that orbit the Earth's North and South poles. As the Earth
rotates, these satellites are able to capture global information about the earth's atmosphere for use
by the National Centers for Environmental Prediction. The most important satellite is launched
into a PM orbit1 and provides the principal source of soundings for forecasting U.S. weather 12 to
48 hours in advance. NOAA launches a backup satellite in an AM orbit to provide a secondary
source of global data in case the sounder or imager fails on the PM satellite. The sounder and the
imager are the two primary satellite instruments. The sounder collects vertical atmospheric
profiles of temperature and humidity, that provide the initial weather conditions used in numerical
models of future weather events. The imager provides global pictures of cloud, snow, and ice
cover.



                            Polar Satellites, Launch Dates, and
                                           Orbits
                        Polar               Launch                             Orbit
                        Satellite           Date
                        Existing
                        NOAA-9              Dec. 84                 PM (Limited Use)2
                        NOAA-10             Sept. 86                AM (Limited Use)
                        NOAA-11             Sept. 88                PM (Limited Use)
                        NOAA-12             May 91                  AM (Operational)
                        NOAA-14             Dec. 94                 PM (Operational)
                        Planned1
                        NOAA-K              Feb. 98                 AM
                        NOAA-L              FY2000                  AM or PM
                        NOAA-M              FY2001                  AM or PM
                        METOP-1             FY2002                  AM
                        NOAA-N              FY2004                  PM
                        METOP-2             FY2006                  AM
                        NOAA-NN             FY2007                  PM
                        NPOESS              FY2008                  PM
                    1
                      Represents the program’s planned launch dates based on current estimate of 50 percent
                    need.
                    2
                      Some instruments are still providing data although critical instruments no longer
                    operational.




1
 PM and AM refer to the time that the satellite crosses the equator in either a southern or
northern direction.
APPENDIX I                                                                            APPENDIX I

NOAA builds satellites to meet planned launch dates and extends these dates until a replacement
satellite is needed. Because NOAA cannot accurately predict when a satellite needs to be
launched, budget estimates can be overstated when funding is included for launches that are not
needed as scheduled.

NOAA plans to replace its AM polar satellite with a European meteorological operational polar
(METOP) satellite in FY 2003. Under provisions of the draft agreement, the METOP satellite
will be launched and operated by the European Organization for the Exploitation of
Meteorological Satellites. NOAA is responsible for the acquisition of instruments that will be
flown on the METOP satellite and is funding the instruments through its NOAA K-N program.
The chart above lists NOAA’s existing polar satellites and current launch date plans.2

NOAA’s Geostationary Operational Environmental Satellite Program

NOAA maintains a two-GOES configuration as its requirement. These satellites orbit the Earth at
the same rate that the Earth rotates, which allows them to stay positioned over the U.S. East and
West Coasts. As with polar satellites, the sounder and the imager are the principal GOES
instruments. The satellites, designed to stare directly at the Earth, provide a steady stream of
images that can be used to detect severe weather events, as well as continuous soundings of the
atmosphere above the United States.

The current series of geostationary satellites are designated GOES I-M. GOES I and J were
launched in 1994 and 1995, respectively, and GOES-K was launched in April 1997. NOAA’s
policy for launching GOES is under revision because the existing satellites are not lasting as long
as expected and launch slots are not always available when needed. GOES-K, which will be
renamed GOES-10 after the checkout period, has been launched as an “in-orbit spare” in order to
have an immediate replacement should GOES 8 or 9 fail.3




2
 Satellites are referred to alphabetically while under development but numerically after launch.
3
Our report, Geostationary Satellite Acquisition Strategy Improved, But Store-in-Orbit Approach
Needs Re-evaluation, OSE-8784-7-0001 discusses NOAA’s launch strategy in greater detail.
APPENDIX I                                                                              APPENDIX I


The next series of geostationary satellites will be designated GOES N through Q. A contract
award for the N-Q series is planned for the first quarter in FY 1998. NOAA also is purchasing
long lead items for another satellite, GOES NN, from the current contractor as a warranty in case
the GOES N-Q procurement is delayed. NOAA will purchase the complete satellite only if it
determines that GOES N-Q will not be available by April 2002. The following chart lists existing
GOES and planned launch dates.


                                           Existing GOES &
                                        Planned Launch Dates
                                  Geostationary         Launch
                                  Satellite             Date1
                                  Existing
                                  GOES-8                Apr. 94
                                  GOES-9                May 95
                                  GOES-K (10)           Apr. 97
                                  Planned
                                  GOES-M                Apr. 02
                                  GOES-L                Feb. 99
                                  GOES-N                Apr. 02
                                  GOES-N!               Apr. 05
                                  GOES-O                Apr. 05
                                  GOES-P                Apr. 07
                                  GOES-Q                Apr. 10
                                  GOES-R                TBD
                              1
                               Planned launch date based on 50 percent probability of
                              need.
